COVER GOES HERE
            United States Department of the Interior

                             Office of Inspector General
                                   Washington, D.C. 20240




                                                                           January 14, 2002

Memorandum

To:        Secretary

From:      Earl E. Devaney
           Inspector General

Subject:   Assessment of the Department of the Interior’s Law Enforcement Activities
           (No. 2002-I-0014)

        This assessment, conducted at your request, describes the actions needed for
effective law enforcement in the Department of the Interior.

        We found that the Bureaus have operated their law enforcement programs with
minimal Departmental oversight and direction. Most law enforcement offices are under
the direction of managers who have limited or no law enforcement experience or training.
This decentralized Bureau management has had near total autonomy, with the power to
determine law enforcement priorities, funding and investigative direction. This
management approach, combined with the Department’s hands-off philosophy, has
resulted in chronic frustration on the part of the Departmental law enforcement officers
and a disquieting state of disorder in the structure and operations of law enforcement
throughout the Department.

        This report contains 25 recommendations to improve the leadership, organization,
control, and accountability of Departmental law enforcement. We would appreciate
being kept appraised of the actions the Department takes on our recommendations.

       If you have any questions about this report, please do not hesitate to call me at
(202) 208-5745.
                                     TABLE OF CONTENTS


                                                                                                                       Page

OVERVIEW ...........................................................................................................    1

Chapter 1 - OVERSIGHT AND COORDINATION ..........................................                                       4

          Recommendation 1 (Creation of DAS-LES) ...............................................                        5
          Recommendation 2 (Emergency Deployment Authority) ...........................                                 7
          Recommendation 3 (Staffing of OLES) .......................................................                   7
          Recommendation 4 (DAS Rules of Engagement) .......................................                            8
          Recommendation 5 (DAS Oversight of LE Budgets) ..................................                             9

Chapter 2 – BUREAU OPERATIONS ................................................................                         10

          Recommendation 6 (SES Bureau LE Positions) ..........................................                        12
          Recommendation 7 (Special Agent Reporting Structures) ..........................                             13
          Recommendation 8 (Plans for Centralization) .............................................                    14

Chapter 3 – LAW ENFORCEMENT FUNDING ...............................................                                    16

          Recommendation 9 (Line Item Budgets & Cost Tracking) .........................                               18
          Recommendation 10 (DAS controlled monies) ...........................................                        19

Chapter 4 – ALLOCATION OF LAW ENFORCEMENT PERSONNEL ......                                                             20

          Recommendation 11 (Staffing Models) .......................................................                  22
          Recommendation 12 (Staffing Shortages to be Addressed) ........................                              22
          Recommendation 13 (Seasonal and Collateral Officers) .............................                           22

Chapter 5 – SECURITY AND EMERGENCY PREPAREDNESS ..................                                                     24

          Recommendation 14 (OLES Responsibilities) ............................................                       25
          Recommendation 15 (MIB Security) ...........................................................                 25
          Recommendation 16 (Bureau Security Officers) .........................................                       25
          Recommendation 17 (Emergency Preparedness) ........................................                          26

Chapter 6 – INTERNAL AFFAIRS .....................................................................                     27

          Recommendation 18 (Centralized Internal Affairs) .....................................                       28
          Recommendation 19 (Internal Affairs Procedures) .....................................                        28
Chapter 7 – RECRUITING, DIVERSITY AND TRAINING ...........................                                          29

          Recommendation 20 (Recruiting Standards) ...............................................                  32
          Recommendation 21 (Background Investigations) ......................................                      33
          Recommendation 22 (Training Standards) ..................................................                 34

Chapter 8 – CRIME STATISTICS ......................................................................                 35

          Recommendation 23 (Records System) .......................................................                37

Chapter 9 – PERFORMANCE MEASURES ......................................................                             38

          Recommendation 24 (Performance Goals) ..................................................                  38

Chapter 10 – JURISDICTION .............................................................................             39

          Recommendation 25 (Cross Designation) ...................................................                 39


CONCLUSION ......................................................................................................   40


APPENDICES

          1.        Summary of Recommendations .......................................................              41

          2.        Office of Law Enforcement and Security, Projected Costs .............                           44

          3.        Office of Law Enforcement and Security,
                       Organizational Chart Model ........................................................          45

          4.        Memorandum from the Secretary: Assessment of
                      Law Enforcement within the Department of the Interior.............                            46
     OVERVIEW


            The Department of the Interior (DOI or Department) has nearly 4,400 law
     enforcement officers assigned to seven separate and distinct organizational units within
     five DOI bureaus (see table below for details). This makes DOI’s law enforcement
     contingent the third-largest in the Federal government, after the Departments of Justice
     and Treasury. Until very recently, DOI law enforcement lacked a centralized
     organizational structure, rendering it incapable of providing a meaningful single point of
     contact for the Secretary and her senior managers, especially during a crisis or other
     major event.



                    Uniformed Agents         Seasonal    Collateral      Correctional Inspectors   Totals
    NPS                1,531          56        499             0              0           0       2,086
    USPP                 630           0          0             0              0           0         630
    BIA                  313        100           0             0            124           0         537
    FWS-DLE                 0       201           0             0              0          90         291
    FWS-REF               76           0          0           522              0           0         598
    BLM                  155          42          0             0              0           0         197
    BOR                   13           0          0             0              0           0          13
             *
    TOTALS             2,718        399         499           522            124          90       4,352

*
    All numbers were obtained directly from the Bureaus mid-year 2001.



             The historic lack of a prominent DOI law enforcement office has resulted in a
     void in leadership, coordination and accountability for the law enforcement programs.
     DOI law enforcement has had no single advocate and no informed senior law
     enforcement official to offer advice and recommendations to upper management.
     Without a centralized facilitator, Departmental initiatives have floundered and
     coordinated law enforcement efforts have been a rarity.

             The Bureaus have operated their law enforcement programs with minimal
     Departmental oversight and direction. Most law enforcement offices are under the
     direction of managers who have limited or no law enforcement experience or training.
     The decentralized Bureau management has had near total autonomy, with the power to
     determine law enforcement priorities, funding and investigative direction. This
     management approach, combined with the Department’s “hands-off” philosophy, has
     resulted in chronic frustration on the part of DOI law enforcement officers and a
     disquieting state of disorder in the structure and operation of law enforcement throughout
     the Department.


                                                        1
        Many of the issues uncovered in this assessment have been identified previously
in past evaluations, reviews and assessments. In the last three years alone, the
Department has spent in excess of $1.5 million to have law enforcement programs
assessed by consultants such as the National Academy of Public Administration (NAPA),
International Association of Chiefs of Police (IACP) and Booz, Allen & Hamilton. The
Department and Bureaus have demonstrated unwillingness, or inability, to recognize and
address the thoughtful recommendations advanced by these professional law enforcement
and management experts. The reports have been largely ignored and do little more than
gather dust on a shelf.

        This report advances many recommendations as well, the first of which have
already been accepted and implemented by the Secretary. The report also recommends
that each law enforcement program operate under line item budgets and produce accurate
cost accounting for their respective programs. Additional Bureau-specific
recommendations include increasing the prominence of the law enforcement programs
and administrators, and centralizing law enforcement units.

        Although this report may be critical of the current condition of DOI law
enforcement management and structure, the report does NOT address the ability and
efforts of the many dedicated and professional law enforcement officers within DOI.
Their extraordinary efforts are documented in the daily Bureau law enforcement activity
reports and local papers nationwide. The overwhelming majority of law enforcement
professionals in DOI are capable and loyal officers who recognize that their programs are
in need of considerable change. They are simply looking for leadership from the
Department to assist them in their efforts to professionalize law enforcement within their
Bureaus.

        The Department will find that the recommended changes in the law enforcement
programs will enhance, not adversely impact, the individual Bureau programs. Law
enforcement officers recognize the need for improvement and some organizational
change; however, they also recognize the need to remain an integral part of their
respective Bureau programs and remain faithful to their Bureau’s mission. The officers
are aware that they must improve organizational communication and work closely and
cooperatively with their non-law enforcement counterparts.

        During the course of this assessment, law enforcement officers throughout the
Department expressed a desire to improve their professionalism and reputation by
establishing centralized oversight, consistent policy and accountability procedures. They
view this report as a final opportunity to implement long-needed changes.

       The Office of Inspector General (OIG) has endeavored to objectively report their
concerns and recommend changes that will address these concerns and improve the
management and operation of law enforcement throughout the Department.




                                            2
        At the request of the Secretary (see Appendix 4), this assessment was conducted
over a ten-month period by a team (Assessment Team) of law enforcement professionals
who have many years of both federal and local law enforcement experience, and
experienced OIG auditors familiar with the DOI law enforcement programs. The
Assessment Team conducted over 120 interviews at more than thirty-five field locations
in order to gain as comprehensive a view as possible.

         In conclusion, the OIG highlights one concern of DOI law enforcement officers --
that this report and its recommendations do not simply become one more for the shelf.




                                            3
CHAPTER 1. OVERSIGHT AND COORDINATION


        Until very recently, the Departmental law enforcement office was the Law
Enforcement and Security Team (LEST), located in the Office of Managing Risk and
Public Safety (MRPS) under the Assistant Secretary for Policy, Management and Budget
(PMB), and staffed with six Full Time Equivalents (FTE). That office was responsible
for providing the policy, procedures, standards and coordination to guide all Department
law enforcement programs. 1 This responsibility included conducting program
compliance inspections, assisting with inter-Bureau operations, investigations, security
assessments and program resource support, and participating in criminal intelligence,
domestic terrorism, drug program coordination or investigative liaison among the
Bureaus and with other Federal law enforcement entities.

        Despite heroic efforts, the law enforcement office could never successfully fulfill
these myriad responsibilities in the absence of a prominently placed law enforcement
official -- armed with adequate staff and support resources -- to oversee, lead, and
coordinate the law enforcement program.

         In times of crisis or emergency, the Department must have the capability to react
swiftly with a synchronized plan of action. The independent nature of the DOI law
enforceme nt units, together with their decentralized management systems, are not
conducive to taking decisive action. Presently, the Department would be hard-pressed to
execute a coordinated, effective response by its law enforcement personnel. Competing
priorities, vague authorities, and muddled vision thwart the best of intentions by the
Department and its law enforcement units to launch even the most basic of collaborative
efforts.

        In the wake of the terrorist attacks on September 11, 2001, the serious
organizational and management problems in the law enforcement components of the
Department were magnified. Of particular concern was the lack of coordination among
the law enforcement components and the absence of a meaningful single point of contact
that the Secretary and her senior managers could depend upon for reliable information
and advice.

        On October 26, 2001, the Secretary took several bold steps to address the
organizational and management deficiencies in DOI law enforcement. Adopting
preliminary recommendations made by the Office of Inspector General, the Secretary
established a Deputy Assistant Secretary for Law Enforcement and Security (DAS-LES),
under the Assistant Secretary – Policy, Management and Budget, and a new Office of
Law Enforcement and Security (OLES) that reports directly to the DAS-LES.
Recognizing that these organizational changes were hollow without attendant staff,
support and authority, the Secretary also realigned personnel from the Office of

1
    See Part 446 – Department Manual.


                                             4
Managing Risk and Public Safety to the new Office of Law Enforcement and Security.
Furthermore, the Secretary established a Law Enforcement and Security Board of
Advisors, and conveyed, generally, the authority to the Deputy Assistant Secretary for
Law Enforcement and Security to serve as the central point of contact for DOI’s law
enforcement and security policy, programs, and coordination – both internally and
externally.

        While the Office of Inspector General fully endorses these critical organizational
changes, it does so in a context far greater than emergency response, crisis management
or homeland security. The OIG assessment targeted improvements in the operations and
management of law enforcement throughout the Department, with a view toward
economies and efficiencies that might be utilized across Bureau lines. Implementation of
the recommendations contained in this report are directed primarily at achieving a highly
professional, well-directed, efficient law enforcement operation for the Department of the
Interior, which would, in turn put DOI law enforcement in a position to respond
effectively to any emergency, crisis or request from the Office of Homeland Security.

       Two things rest at the core of effective management: money and people. If these
new positions, and the people who fill them, are to have any hope of effectively
overseeing law enforcement in DOI, they must be able to influence the budget process
and the allocation of employees. Without access to these levers, their power rests solely
on the Secretary’s willingness to intervene, which, in turn, rests on these officials’
willingness to play such a trump card.

         Clearly, the establishment of the DAS-LES and OLES give increased prominence
to the law enforcement activities and responsibilities of DOI’s law enforcement units.
These are, however, but the first of many changes necessary to solve the chronic
problems that have plagued DOI law enforcement for decades.

Recommendation 1

       For the purposes of providing increased coordination and advocacy for law
enforcement at the Departmental level, the Department should create a new career
Deputy Assistant Secretary for Law Enforcement and Security (DAS-LES) position,
reporting directly to the Assistant Secretary – Policy, Management and Budget.
This position should be filled with an experienced law enforcement professional.

        The need for a Deputy Assistant Secretary for Law Enforcement and Security
emerged during the benchmarking-stage of the assessment. Interviews with several high-
ranking law enforcement officials in other Federal agencies expressed surprise that the
Department of the Interior did not have a high-ranking official heading a centralized law
enforcement office. New and future requirements from the Office of Homeland Security
will accentuate the value of and need for this position.

      Several interviewees from outside DOI made strong suggestions that the
Department establish such a position in a centralized office; another, from a Department


                                            5
in which the law enforcement office had been changed from a decentralized to a
centralized office, iterated the many benefits of a strong, centralized office of law
enforcement, extending from advocacy to budget to consistency.

         Internally, the majority of those law enforcement personnel that were interviewed
acknowledged a need for an authority figure to advance increased advocacy, heightened
status, and equal standing for law enforcement in the Department. Even those who
expressed opposition, wanting to protect their operational independence, recognized the
value of such a position to advance their standing within the Department, and in some
cases, even within their Bureaus.

        Some managers advanced the argument that the law enforcement programs are
but one of many competing activities within their Bureaus and do not deserve or
necessitate an increased priority or “special treatment.” Increased advocacy on the part
of law enforcement begs the question: what about biology or maintenance? In short,
field managers are not convinced that law enforcement deserves priority over other
programs. They view law enforcement as an equal – or less than equal – program with
the others. This view reveals the fact that many non-law enforcement managers do not
recognize the complexities of law enforcement.

         Particularly for those offices located in a Bureau where law enforcement is not a
priority, and law enforcement-related concerns consistently failed to rise to the higher
levels of management, the concept of a prominent, high-level champion was
enthusiastically supported. The dismissive attitude of some Bureau Directors is further
illustrated by a conversation between the Inspector General and a former Bureau
Director, wherein the Bureau Director declined the Inspector General’s request to discuss
law enforcement in the Bureau, retorting, “I leave law enforcement to the State
Directors.”

        Furthermore, the absence of a high-level law enforcement official has led to
coordination problems with other law enforcement agencies. Often times, when it is
necessary to coordinate a national response to an emergency or event, other Federal
agencies are forced to deal with individual Bureau law enforcement programs separately
for assistance. The planning for the upcoming Olympic games was made more difficult
by the lack of an organized response to the Secret Service request for DOI law
enforcement support. Bureaus volunteered personnel without funding approval from or
coordination with the Office of the Secretary. The Department was also unprepared to
provide accurate and timely information regarding the number and location of law
enforcement personnel that could assist in the investigation and response to the terrorist
attacks on September 11, 2001.

        Finally, the head of a centralized law enforcement office cannot become mired in
a long campaign against bureaucratic inertia, and must recognize, at the outset, that the
law enforcement entities within DOI are short on incentives to work together and have
long histories of working apart.




                                              6
        The creation of a centralized law enforcement position should not replace or
minimize the individual Bureau’s authority over the day-to-day operations of their own
staff. Rather, this position should be the facilitator, advocate, champion, overseer and
representative for the Department law enforcement program overall.

Recommendation 2
       To ensure a coordinated response in times of emergency, the DAS-LES
should have direct authority (when delegated by the Secretary) to oversee the
operational deployment of all DOI law enforcement officers.

        The Secretary must have a law enforcement office that is prepared to immediately
put in place contingency plans and operational directives and coordinate actions with
other Department offices and Federal agencies, including the Office of Homeland
Security. To be effective, the DAS-LES must be placed in a prominent position within
the Department and be provided direct access to the Secretary and her management team,
particularly in emergencies.

        At times of crisis or emergency, the Department must have the capability to react
swiftly and decisively. DOI must be prepared to respond to all threats, foreign and
domestic, with a synchronized plan of action. The independent nature of the law
enforcement units of DOI, along with their decentralized management systems, are not
conducive to the swift action necessary. The Department must have the necessary
controls in place to manage the response of its law enforcement personnel. This will
reduce the impediment of competing priorities between Bureaus, and produce a unified,
unbiased Departmental response.

Recommendation 3

       The Office of Law Enforcement and Security should be staffed with
dedicated personnel experienced in law enforcement investigations, management,
criminal intelligence, legal matters and budget.

        The Department’s law enforcement office has been woefully understaffed,
primarily through benign neglect, and incapable of performing the myriad of duties and
responsibilities assigned to it. For example, a critical oversight function is the monitoring
of the Bureaus’ law enforcement programs for compliance with policy and standards.
Since the inception of the office, MRPS has not had the FTEs or funding to staff an
inspections/compliance unit.

        In the past, members of the Law Enforcement and Security Team conducted
limited program compliance inspections in addition to their other assigned duties. Due to
increased demands in other priority areas, however, there have been no policy or
standards inspections conducted for the past two years.




                                              7
        Inadequate staffing has also affected their responsibilities to assist with inter-
Bureau operations, investigations, security assessments and program resource support. In
addition to a lack of authorized positions for inspections, there are no full time positions
authorized for other necessary law enforcement responsibilities such as criminal
intelligence, domestic terrorism, drug program coordination or investigative liaison.
Currently each staff member is assigned multiple duties and responsibilities for a variety
of programs. The multiple tasking of significant responsibilities has led to several
responsibilities receiving minimal or no attention. The creation of an adequately staffed
Office of Law Enforcement and Security is critical to the success of the DAS-LES.

        The Assessment Team did find that the skeletal structure that existed in MRPS
contained most of the critical functions and authorities necessary for OLES, but
concluded that the existing staff from the Law Enforcement and Security Team should be
strengthened with an additional 28 FTE. The core personnel assigned to OLES should be
dedicated employees, while the remainder of the staffing positions should be filled with
detailees from the Bureaus to ensure that each Bureau is adequately represented.

        The Director of OLES needs a permanent staff that owes its loyalty to the
Director, and the Director alone. To minimize the risk of divided loyalties and
complicated reporting responsibilities, detailees should be assigned to OLES for no less
than two years, and should report directly to the Director of OLES, not to the Bureau
Director or the management of the law enforcement unit from which they are detailed.
Detail assignments will also help ensure that each of the Bureaus become an active
participant in the new OLES. Selection of detailees must be approved by the DAS-LES.
A proposed budget and an optimal staffing proposal developed by the Assessment Team
are detailed in Appendices 2 and 3, respectively.

       The staffing of this office must be done thoughtfully and carefully to achieve the
appropriate balance and blend of skills, experience and expertise. Given current budget
constraints, this staffing effort would best be accomplished over a two-year period, to
ensure adequate financing using a combination of incremental reprogramming and new
funding.

Recommendation 4

        The DAS-LES must establish a clearly defined and documented set of
policies, procedures, techniques and mechanisms detailing the circumstances under
which the Bureaus are required to interact with OLES and enforcement of those
rules of engagement.

       The Departmental Manual already outlines the responsibilities of the MRPS Law
Enforcement and Security Team. One of the first tasks of the DAS-LES should be to
review, revise and strengthen these responsibilities with policies, procedures, techniques
and mechanisms to ensure the efficient and effective operation of the Office of Law
Enforcement and Security. Working with the Bureaus and their law enforcement




                                             8
directors, the DAS-LES should develop these as quickly as possible, have them ratified
by the Secretary and re-incorporated into the Departmental Manual.

Recommendation 5
       The DAS-LES should be granted oversight authority for all Departmental
law enforcement units’ budgets.

         To ensure appropriate and efficient expenditures of dedicated law enforcement
monies, the DAS-LES should, in concert with the DAS-Budget and Finance, review and
ratify the budget requests and major expenditures of the DOI law enforcement units each
year. While the DAS-LES will have oversight in this arena, the onus of thoughtful
budget formulation and accurate cost accounting will remain with the Bureau.




                                           9
CHAPTER 2. BUREAU OPERATIONS


        Centralized coordination and leadership of DOI law enforcement will require a
massive paradigm change in Bureau law enforcement units. The autonomous
management and operation of the law enforcement units, typically by non-law
enforcement managers, has resulted in profound inconsistencies extending from “law
enforcement approaches, staffing configurations, management and supervisory styles,
compliance requirements, equipment standards, and many other critical aspects of the
protection function [that] defy cataloguing.” 2 In general, law enforcement at DOI is aptly
described by the IACP’s conclusions about National Park Service (NPS) law
enforcement: a “profusion of conditions and practices in search of a system.” 3

        Management of and approaches to law enforcement within the Department are as
varied as the number of organizational units holding law enforcement authority. Policies
are inconsistent, broad and often ambiguous, giving the field managers vast discretion in
how they direct their law enforcement programs locally. In addition to operating
inefficiently, the present organization and management of law enforcement in DOI causes
confusion and frustration on the part of the law enforcement officers in the field. Some
NPS Special Agents expressed frustration over the fact that NPS has no clear policy even
as to the jurisdictional authority of the agents; therefore, the question of how – or even
whether – to investigate is dictated entirely by their typically non-law enforcement
supervisors. The NPS, in particular, suffers from such extreme organizational
dysfunction that none of the NPS officials interviewed during the course of this
assessment were able to explain just how NPS Special Agents were supervised and
managed.

        The level of discretion granted to local managers is so extreme that, in some
instances, it utterly undermines the integrity of the program, and in others, it emasculates
the law enforcement function entirely. Although it did not independently verify the
allegations, the Assessment Team was troubled by the sheer number of allegations of
interference by local managers.

       The independence of the law enforcement programs, together with their
decentralized management, challenges the Bureaus’ ability to coordinate law enforcement
responses to critical incidents, emergencies and crimes.

       Existing management structure often requires each State/Regional Director or
Refuge/Park Administrator to independently approve of what should be collaborative
deployment and operational plans. Local control over law enforcement officers has
delayed or even prevented their deployment or reassignment. For example, during the
standoff between local farmers and the government at the Klamath Falls headgate,

2
  International Association of Chiefs of Police, Policing the National Parks: 21 st Century Requirements,
2000, Chapter V. The NPS Law Enforcement Culture – Prospect for Change.
3
   Id.


                                                    10
deployment of DOI officers to guard the dam was unreasonably delayed while Bureau of
Land Management (BLM) State Directors debated the directives issued by the BLM
National Law Enforcement Office. One State Director flatly refused to allow any of her
officers to be dispatched because the headgate was a Bureau of Reclamation (BOR)
facility. More recently, when Federal law enforcement organizations nationwide were
asked to supply Special Agents or officers for emergency training as Air Marshals,
Bureau of Indian Affairs (BIA), BLM and Fish and Wildlife Service (FWS) promptly
provided officers as requested. NPS reluctantly provided a small list of names, despite
vocal opposition from the Regional Offices. As a result, NPS, the largest law
enforcement entity in the Department with over 2,700 law enforcement officers, provided
only three officers for this critical national effort.

        The Assessment Team discovered a wide variety in the levels of effectiveness of
the individual Bureau’s national law enforcement offices. For instance, the BIA law
enforcement program has a traditional, centralized Federal law enforcement structure
with all the positive strengths that result from such a model, including an SES-level
Director of Law Enforcement who reports directly to the BIA Deputy Commissioner.

         The BLM, on the other hand, has a National Law Enforcement Office that is
divided between Washington, D.C. and Boise, Idaho. The Chief of the National Office
(GS-15) is located in Washington and has a limited staff. The largest staff and operation
of the National Office are located in Boise. The Chief of the National Office reports to
the Assistant Director of Minerals, Realty and Resource Protection. Numerous people
questioned the effectiveness of the bifurcated National Office system during the
assessment. Several State Directors were interviewed and stated that they did not have
significant interaction with the National Office and that they did not use the National
Office for guidance or input.

        The FWS Division of Law Enforcement also has an adequately staffed National
Office, the director of which reports directly to the FWS Director as the SES Assistant
Director for Law Enforcement. The structure of the FWS National Office is similar to
the BLM model in appearance, although its effectiveness and support was given better
reviews by the field. The Assessment Team learned that the National Office provided
sufficient support and was capable of achieving effective accountability and oversight of
the law enforcement program.

         The Assessment Team concluded that two specific characteristics set the FWS
structure apart from that of BLM: 1) the promi nence of the Director of the Law
Enforcement Program within the organizational structure and, 2) the ability to interact
with Regional Directors and Special Agents in Charge more effectively.

        In 1993, under the guise of decentralization and downsizing of the headquarters
offices, the NPS decimated the Washington-based Ranger Activities Division (RAD),
leaving a crippled and ineffective national support mechanism. In 1998, an internal
review team was formed to assess the effectiveness of the RAD office and made




                                            11
numerous recommendations for improvement (to include centralizing critical
management functions) many of which have gone unimplemented.

        Thus, the effectiveness of the National Offices appears to be dependent upon the
prominence given to the chief or director’s position, their ability to work within the
political and managerial structures and whether they are adequately staffed. Currently,
salary grades for law enforcement managers range from GS-13 to the SES level, although
the grade level of a given manager bears little correlation to the size and responsibilities
of the program. The Assessment Team found that the programs managed by SES level
supervisors having direct or expedient access to the Bureau Directors (FWS-DLE and
BIA) were more effective.

Recommendation 6
       For all Bureaus, establish a Senior Executive Service (SES) level Director of
Law Enforcement and fill it with an experienced law enforcement professional.
This position should report directly to the Bureau Director or Deputy Director.
Bureau Directors of Law Enforcement, together with the Director for the Office of
Law Enforcement and Security, should serve as the members of the Law
Enforcement and Security Board of Advisors, created by the Secretary’s Order of
October 26, 2001.

        On numerous occasions during the course of the assessment, law enforcement
professionals, both inside and outside the Department, articulated their belief that DOI
law enforcement programs need consistency in their leadership levels. Even the
employee groups that represent law enforcement personnel -- the Fraternal Order of
Police for both the U.S. Park Police (USPP) and the NPS Park Rangers, as well as the
Federal Law Enforcement Officers Association -- have expressed their support of
increased prominence and parity in the leadership within all DOI law enforcement
programs. Elevating positions to consistent levels will, in some cases, increase the
prominence of the Directors of Law Enforcement, and enhance the communication and
coordination among the individual Bureau law enforcement programs by equalizing the
reporting level and access to senior decision makers.

        Subsequent to September 11, BOR sought and received statutory law enforcement
authority to contract for infrastructure protection at the dams. Although the BOR law
enforcement program will be small, by comparison, it should still have a Director of Law
Enforcement to be consistent with the other law enforcement programs in DOI. The
Director, however, should be someone who can work well with local law enforcement
officials and address Homeland Security concerns.

       The Assessment Team supports the IACP recommendation that the NPS Chief
Law Enforcement Officer be an SES and serve at the Associate Director level. Currently,
the Associate Director for Park Operations and Education oversees the Ranger Program.
Because the Ranger Activities Division is but one small portion of the responsibilities of




                                             12
the Associate Director, that position cannot provide the necessary leadership and
advocacy the program requires.

        Serious consideration should also be given to placing the Chief of the United
States Park Police under the new Director of Law Enforcement. The selection of an
experienced law enforcement executive would benefit both the Ranger and USPP
programs and provide the necessary leadership and input that the NPS desperately needs.

        A recent report issued by the National Academy of Public Administration raised
several similar concerns of NPS and U.S. Park Police management. They called for a
review of the USPP mission and its relationship with NPS. The reaction by some USPP
officials to the NAPA report was somewhat telling of the existing relationship between
the NPS management and the USPP. The report was characterized as being a “hatchet
job” and masterminded by NPS management to discredit the Park Police and enhance the
position of the Rangers. Both parties discussed the muddled roles and relationships
between the Park Police and Rangers throughout our assessment. It was surprising to
learn of the adversarial relationships and, at times, disrespect for each other. Given the
unhealthy relationship between the two programs, the individual selected as the Director
of Law Enforcement should be drawn from a national pool to avoid the appearance of
preference in favor of either the Ranger or the Park Police programs. New leadership,
willing to embrace change and confront organizational resistance, is imperative for both
programs.

       Identity issues and relationship problems between “sister programs” are not
unique to the NPS. The Division of Law Enforcement (DLE) is viewed as the favored
program and given far greater prominence in the FWS than the Refuge law enforcement
program. Refuge managers and officers agreed that the National Wildlife Refuge System
(NWRS) law enforcement program is a second-class citizen in the FWS law enforcement
program.

       The relationship between the Refuge Officers and the DLE appears to be one of
“you do your thing, we will do ours” in most Regions. With very little exception, the
only involvement between the two programs is the quasi-supervision of Refuge Officers
by the Regional Special Agents in Charge (SAC). In most regions, the SAC is
responsible for the oversight of enforcement actions by Refuge Officers. In one region,
the SAC must approve all citations before they are formally submitted to the courts.

Recommendation 7

       Immediately restructure the reporting system for Special Agents (1811 and
1812 series) to create line law enforcement authority. All Special Agents in the field
should report to Special Agent managers (Special Agents in Charge) who, in turn,
should report directly to the Bureau Directors of Law Enforcement. Non-law
enforcement oversight of investigations must be discontinued.




                                            13
        The policies governing the law enforcement units in DOI give the managers
unrestricted discretion in how, or whether, to pursue investigations into potential criminal
violations. However, competing program interests often prevent these managers from
exercising independent and objective judgment. Non-law enforcement managers with
multiple program responsibilities should not be approving, supervising or managing
criminal investigations.

       In 1997, the Presidential Council established by Executive Order 12805 issued its
Quality Standards for Investigations, which concluded:

          In all matters relating to investigative work, the investigative organization must
          be free, in fact and appearance, from impairments to independence; must be
          organizationally independent; and must maintain an independent attitude.

        This standard places upon agencies, investigative organizations, and investigators
the responsibility for maintaining independence, so that judgments used in obtaining
evidence, conducting interviews, and making recommendations will be impartial and will
be viewed as impartial by knowledgeable third parties.

        Special Agents told the Assessment Team of countless instances in which they
were precluded, by their non-law enforcement managers, from pursuing potentially
serious criminal violations -- in favor of civil enforcement, or even no enforcement action
at all. At best, the Special Agents attribute such decisions to the managers’ lack of
familiarity with mainstream law enforcement administration; at worst, it is characterized
as interference with or cover-up of potential criminal conduct.

        This transition would formalize the process and remove the “personality”
influence of such decisions. An official from FWS Division of Law Enforcement stated
that they could make the transition with the ease of “flipping a switch” without any
impairment to the FWS mission. For others, however, it may not be so easy.

Recommendation 8

       For all remaining law enforcement officers and personnel, develop strategic
plans for the transition to centralized management systems that report to the
Bureau Directors of Law Enforcement. In the interim, ensure that any remaining
non-law enforcement managers with line authority over law enforcement officers
and personnel have and maintain Critical Sensitive Clearances, as recommended in
current Departmental policy. 4

        Law enforcement, generally, is not a program conducive to decentralized
management. The authorities and powers of arrest, search and seizure, and use of deadly
force put law enforcement officers in a position unique from any other employees. With
the authorities and powers attendant with law enforcement comes heightened

4
    446 Departmental Manual 2.3.


                                               14
responsibility and accountability. These demand tight reign, close supervision, clear
chain of command and rigorous oversight. A centralized organization is the only
management structure that provides this kind of control and accountability.

        Consistency in organizational structure for law enforcement Department-wide
will only complement the consistency in leadership. Because centralization had been
precluded by the previous FWS Director, the recent IACP study of FWS recommends
that the NWRS law enforcement Program remain decentralized. The Assessment Team,
however, concluded that the very same study suggests an equally profound need for
centralization: “The law enforcement function is locally controlled and administered
with marginal guidance from the national level. This results in fragmented and
inconsistent approaches to law enforcement service delivery, with insufficient
accountability for accomplishment or monitoring, of all levels.” Accordingly, the NWRS
should also develop a strategic plan for the transition to a centralized management system
that reports to the FWS Director of Law Enforcement.

        While the Assessment Team considered the NWRS to be the least capable of
centralizing its law enforcement program and officers, given its significant reliance on
collateral duty officers, NWRS should, nonetheless work toward centralization. They
should do so incrementally, however, to ensure that programs are not negatively impacted
and that sufficient infrastructure is in place to accommodate and embrace the change.

        Immediate implementation of centralized structures will present a challenge,
primarily due to senior management resistance, current organizational structures and
practices and the inability of some Bureaus to accommodate change. However, the
recommendation should not be dismissed simply because “it has been recommended
before and not accepted.” Instead, it should be viewed as a recurring theme from several
different assessments and as a cure for some prominent weaknesses in the programs that
deserves serious consideration.

        In the meantime, all non-law enforcement managers should have Critical
Sensitive Clearances, at a minimum, to ensure the integrity of the law enforcement
programs and their overseers. The Assessment Team learned of more than one manager
with responsibilities over law enforcement who had been the subject of serious integrity
issues during their careers. DOI law enforcement programs should not be overseen by
managers whose integrity has been compromised.




                                            15
CHAPTER 3. LAW ENFORCEMENT FUNDING


        Although estimates put the cost for operation of law enforcement Department-
wide in excess of half a billion dollars, the Assessment Team found that Bureau law
enforcement programs are wholly incapable of accurately accounting for the cost of their
operations. They have not developed, maintained, monitored or analyzed their budgetary
or accounting information in any consistent or systematic manner. Consequently, the
Department cannot obtain for itself, nor can it provide to Congress, reliable information
concerning the aggregate salary, equipment, administrative support, training or other
costs incurred by the law enforcement programs. This information is critical for sound
budget formulation, accurate cost accounting, and for strategic and performance
planning.

        The USPP, BIA, FWS-DLE and BOR law enforcement units operate under
dedicated or “line item” budgets; the NPS Ranger and FWS Refuge Program budgets and
approximately 50 percent of the budget for BLM’s law enforcement program are derived
from or commingled with non-law enforcement budgets. With no coordinated DOI law
enforcement influence, each Bureau independently determines law enforcement budget
needs and spending priorities, and develops budget justifications. These individual
efforts have proven largely ineffective for most organizations.

       An example of this lack of budgetary identity can be found with the NPS Rangers.
NPS Rangers are funded primarily through the “Operation of the National Park Service”
appropriation. Within this appropriation, the budget sub-activities of “Visitor Services”
and “Resource Stewardship” contain the bulk of funding for law enforcement Rangers.
The total FY 2000 law enforcement funding for NPS Rangers, according to the NPS
budget justification was about $129.6 million from “Resource Stewardship” and “Visitor
Services.” When asked, the Acting Chief of the NPS Ranger Activities Division could
not provide a breakdown of FY 2000 funding totals by park. According to the report
“NPS-Annual Law Enforcement Report” for fiscal year 2000, the amount of actual law
enforcement expenditures reported by the Division in its fiscal year 2000 annual law
enforcement report was only about $101 million or $28.6 million less than the reported
funding level. NPS officials could not explain nor do they have the expenditure
information available to identify the difference.

        The NWRS law enforcement funding is derived from budgets allocated to and
controlled by its Refuge Managers. In its report, Protecting the National Wildlife Refuge
System: Law Enforcement Requirements for the 21st Century, the IACP stated:

       “The NWRS does not segregate or earmark funding for law enforcement.
       Project leaders are empowered to allocate resources for law enforcement
       or not to do so. Regardless of initial programming for specific law
       enforcement expenditures, once funding is allocated, there are no controls
       to ensure that funds are actually spent for that law enforcement priority.”



                                           16
       Without controls over the use of budgetary resources, law enforcement inherently
takes on a secondary status to other functions within the Refuges. (Budget, in turn,
controls or affects all else.) Issues such as force deployment, equipment upgrade or
replacement, and officer training cannot be planned or addressed on a system-wide basis
under this current funding structure.

        The Department’s law enforcement entities also receive considerable funding --
some $36 million in FY 2000 -- from the Office of National Drug Control Policy
(ONDCP), but they have virtually no coordination of drug enforcement efforts among
themselves or with other Federal, state or local agencies. Each Bureau determines its
own priorities and operational plans to address drug enforcement within their respective
jurisdictions, with no Departmental oversight. The Assessment Team received several
complaints that the ONDCP funds were reprogrammed for non-drug enforcement, and
even non-law enforcement purposes. Given the lack of accountability, the allegations of
reprogramming of these monies can neither be confirmed nor dismissed.

        In addition, the Department might reasonably anticipate additional appropriations
dedicated for counterterrorism activities to supplement monies already appropriated,
much of which is directed to efforts by the DOI law enforcement units. These monies
and others targeting law enforcement activities Department-wide call for centralized
control.

         Many of the managers interviewed during the course of this assessment
vehemently oppose line item budgets for law enforcement, expressing concern that line
items budgets will restrict their ability to manage their areas of responsibility and limit
their authority to determine their own priorities at the operational level. The Assessment
Team was told by numerous managers, in essence, “Washington can not determine our
priorities effectively.” Proponents of line item budgets believe that earmarked funds will
help them retain their law enforcement identity and protect them from reprogramming by
managers who favor other programs.

        While the results of this assessment favor line item budgets for law enforcement,
a number of caveats attach to the recommendation. Several law enforcement personnel
who support line item budgets predicted that such a recommendation would be strongly
opposed by Refuge Managers, State and Regional Directors and Park Superintendents
who jealously guard their budgetary control of law enforcement monies, and that any
such mandate by the Department will be met with a concerted effort by these managers to
secure the opposition of their Congressmen and Senators.

        Transition to a centralized management structure and line item budget authority
also risks an adverse reaction from the Bureau to which the law enforcement entity is
attached. For instance, during the transition of BIA’s law enforcement program,
allegations that the Bureau under-reported law enforcement costs and withdrew
administrative support threatened the BIA law enforcement program’s move toward
budgetary autonomy.




                                            17
         However, line item budget authority is not synonymous with wholesale
programmatic independence. A shift to line item budgets for all DOI law enforcement
entities must be viewed as a move toward fiscal responsibility for unique program
operations with exceptional budgetary needs, such as purchase of firearms and protective
gear, law enforcement availability pay and specialized communications equipment. Self-
interested field managers who have become accustomed to unfettered control over
spending must not be allowed to interfere – either directly or indirectly – with sound
fiscal management.

Recommendation 9
        Establish and implement single line item budgets and cost tracking systems
for all DOI law enforcement units.

        The Department does not have the accounting systems within its law enforcement
programs to provide reliable information needed to analyze expenditures by type,
location, mission element, and organizational entity. Accounting for law enforcement
expenditures is critical for Bureau and Departmental management to monitor
performance of the Department’s law enforcement programs. Sound and accurate
accounting allows management to plan its personnel deployment, equipment replacement
and upgrade, administrative support, training, and numerous other critical program
requirements. Accurate expense data is also essential for management’s analyses of
historical trends and for responding to programmatic inquiries by external parties such as
the Congress and the Office of Management and Budget (OMB). Reliable financial
information is crucial for making informed management decisions and evaluating the
results of those decisions. Without good financial data, management is left to making
decisions in the dark.

        Line item budgets and cost accounting systems will help ensure that funding for
law enforcement is used for law enforcement purposes, as well as advance the
Administration’s goal of tying budget to performance in this high-visibility arena.
Bureau law enforcement units must identify not only how much money they need for
their operations, but also the wisest ways to spend it.

        The Bureau Directors of law enforcement should use the cost tracking
information to monitor program performance, budgeted versus actual expenditures, and
analyze the results of mission-specific goals and objectives. They should also utilize all
of this derived information to enhance their budget formulation process and improve the
accuracy of their cost accounting.




                                            18
Recommendation 10
      ONDCP and other special law enforcement monies should be controlled by
the DAS-LES and assigned a separate fund code for spending and tracking.

        Centralized control of non-appropriated monies and special appropriations will
ensure accountability and help eliminate reprogramming concerns. While all special
funding should have the same oversight and controls as those funds appropriated directly
to the Department, the Department should pay careful attention to the funds associated
with September 11 and antiterrorism efforts. Undoubtedly, Congress and OMB will, at
some point, ask for an accounting of these funds. The DAS-LES is an ideal, central and
single position to assume this responsibility.




                                           19
CHAPTER 4. ALLOCATION OF LAW ENFORCEMENT
PERSONNEL


         Law enforcement organizations throughout the country -- local, state and Federal
-- utilize standard methodologies for the staffing and deployment of officers. No
accepted methodology is used by DOI law enforcement units. Staffing decisions are
based upon historical staffing levels or personal decisions of local Bureau administrators.
These decisions are often made with little or no consultation of law enforcement
professionals. Past studies have been critical in this regard, one concluding that law
enforcement staffing in the NPS is “patently illogical and erratic.”5

        Without exception, Bureau law enforcement programs consider themselves
understaffed, but absent an effective staffing model and accurate data for a needs-
assessment, they are powerless to advance convincing arguments for additional staff.
Nonetheless, even without good data or models, the need for additional staff emerges as
real, profound, and endemic.

        The IACP concluded, somewhat reluctantly, that the NWRS was in need of 200
officers and the NPS Rangers needed 615 additional Rangers. 6 The USPP indicate a need
for an additional 200 officers, while BLM argues for an increase of 58 positions to bring
them back to their 1993 staffing level. In an internal report, the NPS concluded it was in
need of 1,295 new positions. Law enforcement in Indian Country is also considered
severely understaffed. A senior BIA law enforcement official reported that “[b]y all
conventional staffing models, Indian Country law enforcement should be increased by
over 2,000 officers.”7 An alarming shortage of BIA correctional officers translates into a
potential liability for DOI and a high risk for BIA corrections and nearby communities.
While the Department of Justice is funding the building of new jails to reduce
overcrowding, the funding for correctional officer positions is not in the appropriation.

        Each year, DOI law enforcement is also facing more traditional law enforcement
issues. As urban sprawl invades the boundaries of public lands, and criminals continue to
discover ways to produce drugs on Federal lands with minimal risk of arrests,
enforcement issues will continue to rise. A recent Federal Times article (August 13,
2001) reported that there was a 39% increase of reported incidents from 1999 to 2000 for
BLM, FWS, NPS and the National Forest Service (NFS). The article also reported an
increase of assaults against Federal law enforcement officers to include DOI law
enforcement. The article quoted the NPS Acting Chief Ranger as stating, “We (NPS) are
the most assaulted law enforcement agency in the country.”



5
  International Association of Chiefs of Police, Policing the National Parks: 21st Century Requirements, 2000 .
6
  Id. The recommended 615 Rangers was to replace “significantly” the 600 seasonal ranger positions included in their
tota l numbers.
7
  The total would double the current number of law enforcement officers in Indian Country; total includes Tribal
Police.


                                                         20
         Anti-government groups and domestic terrorists are increasing in numbers and
activities. Resistance to governmental control of public lands and waterways is
becoming more contentious.

        Ironically, the success of drug enforcement efforts by both Federal and local law
enforcement agencies has driven illegal drug activity away from urban areas and into the
more remote public lands. FWS Refuge, BLM and NPS officers/rangers routinely
discover sites of illegal drug production by happenstance. Often times the sites are
abandoned or unoccupied upon discovery, although discovering an occupied illegal site is
becoming more likely with the increase of activity. The danger of coming upon an illegal
drug site is not just a safety concern for law enforcement officers, but also threatens the
safety of thousands of DOI employees conducting experiments, research and
maintenance on the public lands. Because uniforms and vehicles used by law
enforcement and non-law enforcement employees are similar, if not the same, it is
conceivable that a criminal suspect could misidentify a non-law enforcement officer and
use deadly force against the employee believing that they were avoiding arrest.

        In some areas, the staffing shortage is obvious. At Cabeza Prieta National
Wildlife Refuge on the Southwest border, one full-time officer and one collateral-duty
officer cover the entire 860,000-acre Refuge. Being without meaningful backup, the full-
time officer predominately patrols the east side of the refuge, where he can call upon the
NPS and National Forest Service Rangers in the area for support, and ignores the more
desolate west side. The Assistant Refuge manager acknowledged the lack of necessary
law enforcement presence but cited unavailable funding to hire additional officers. The
manager, a biologist by profession, explained that he was going to attend the Federal Law
Enforcement Training Center (FLETC) law enforcement training course himself so that
he could provide law enforcement support as a collateral duty.

        Some staffing and deployment decisions were completely arbitrary, based solely
on the manager’s personal prioritization. As an example, one Park Superintendent chose
not to hire additional law enforcement Rangers, even when provided additional funding
for the acknowledged need, because he felt the additional Rangers would “unbalance” his
work force. A fellow Superintendent stated, “We must be careful not to show too much
support for law enforcement over other programs.”

        Very few examples of the re-deployment of law enforcement officers were found
in any Bureau. Decentralization of the programs prevents the law enforcement program
chiefs from controlling the deployment of their officers. With the exceptions of BIA and
USPP, the law enforcement programs do not operationally control their officers. Passive
re-deployment of staff occurs with voluntary transfers or retirements in most cases, rather
than assessing needs or utilizing any sort of workforce methodology.

       The related issue of crime reporting systems, discussed in depth in Chapter 8,
recommends coordinated, systematic collection of crime data, and ultimately putting law
enforcement officers where the crime is.




                                            21
Recommendation 11
      Each law enforcement program should develop staffing models and
methodologies. The Office of Law Enforcement and Security should oversee this
development effort.

         Each law enforcement program will have unique staffing issues that will dictate
the development of the models and methodologies. Certain aspects of the development
of staffing models and methodologies may extend across Bureau lines, however, and
should be considered more broadly, if not Department-wide. Oversight by the Office of
Law Enforcement Services is critical to ensure the efficient use of such broad
applications.

        Any methodology adopted by DOI from traditional police organizations for the
staffing and deployment of police officers will need to be modified for land management
law enforcement to encompass additional factors including: large areas of unpopulated
lands, increased seasonal use, contracting with local law enforcement, limited personnel,
resource use, and proximity to urban areas.

       Serious consideration should be given to contracting with workload management
experts familiar with law enforcement staffing issues to assist in the development and
implementation of the staffing models.

Recommendation 12

      Staffing shortages related to officer safety should be identified by the OLES
and corrected immediately.

        Some staffing shortages are unambiguous and pose a clear safety risk to law
enforcement officers. In those instances in which the Board of Advisors can identify
officer safety issues associated with staffing shortages, the DAS-LES, in consultation
with the appropriate Bureau Director, should ensure that the staffing issue is addressed
immediately.

Recommendation 13
       Reduce dependence on part-time collateral duty and seasonal law
enforcement officers.

         The NPS-Ranger and FWS Refuge programs use seasonal or collateral duty
employees to supplement the full-time law enforcement staffing levels. Seasonal
employees are usually employed for less than six months while collateral-duty officers
are full time employees who receive law enforcement training and spend less than 50% of
their work hours performing law enforcement duties. The NWRS consists of 90%
collateral-duty officers and 10% full-time officers.



                                            22
        Collateral-duty officers require the same degree of training, equipment and
oversight as their full-time counterparts. Unfortunately, they tend to be viewed by other
law enforcement officials as less qualified and less professional. Within the collateral-
duty ranks there is an increased effort to change the image of collateral-duty officers. In
the past, many collateral officers held low-grade positions and were not otherwise
eligible to become full-time law enforcement officers. Others were non-law enforcement
employees who were “forced” to take on law enforcement duties. Presently, the majority
of collateral-duty officers are non-law enforcement professionals who have expressed an
interest in becoming trained in law enforcement.

      The use of collateral-duty officers is primarily due to cost savings benefits;
however, some Refuge Managers believe that full-time officers would be more efficient
and would provide more consistent services.

        Seasonal law enforcement officers are utilized primarily to address the seasonal
increases of visitors to DOI sites. The IACP characterized the use of seasonal and
collateral employees as being economically beneficial, but having many other downsides
from professional and corporate standpoints. The IACP also recommended increasing
the staffing levels of the NPS Ranger Law Enforcement program by 615, roughly the
equivalent of the seasonal staff. The new positions would significantly reduce the need
for seasonal employees only if NPS deploys the new Rangers where workload demands
indicate.




                                            23
CHAPTER 5. SECURITY AND EMERGENCY PREPAREDNESS


        Unfortunately, since September 11, 2001, the importance of security and
emergency preparedness requires no introduction. Well before September 11, however,
security risks at Department facilities had been identified, with little or no action taken to
address the concerns. For example, in 1999, the NPS commissioned Booze, Allen &
Hamilton to assess the security and vulnerability of the major monuments under the
control of NPS in Washington, D.C. The resulting report recommended numerous
security enhancements. In an independent interview, the USPP Acting Chief reported
that few of these recommendations have been acted upon. Another, more immediate
example, is the failure of the Department to install vehicle arrest systems at the garage
entries for the Main Interior Building (MIB). This security measure had been
recommended several years ago, and funds were appropriated. Those funds, however,
were later redirected and the vehicle controls were never installed. As a result, since
September 2001, government vehicles parked in the driveways and physically manned by
personnel from the various DOI law enforcement units serve as vehicle control at MIB
garage entrances.

        However, these law enforcement officers are not serving in a security capacity as
a result of their respective DOI law enforcement authority. Because MIB is a GSA-
owned facility, DOI law enforcement officers must receive special deputization from the
United States Marshal’s Service in order to perform security functions at MIB. This
process is not only time-consuming and burdensome to the Marshal’s Service, it is a
logistical nightmare for DOI to manage.

        Like its law enforcement counterpart, the security program at DOI needs
strengthening and increased coordination. For the most part, the same six-person Law
Enforcement and Security Team has been responsible for providing the development,
direction, coordination and implementation of the Department’s security program. This
includes establishing policy and guidelines for physical security (including domestic
terrorism), critical infrastructure protection, personnel security, national industrial
security, and classified national security information -- in addition to its responsibilities
as the DOI Law Enforcement Office.

        The existing security program has policy and guidelines in place to assist the DOI
Bureaus and offices in establishing their own security offices, although given the staffing
shortage in MRPS-LEST, no viable oversight has been exercised. Bureau security
programs are patchy in their existence and inconsistent in their operations. MRPS
reported that each Bureau has identified Bureau Security Officers, although in many
cases, security responsibilities are collateral duties. Furthermore, the Department’s
security program must be coordinated with those of the Bureaus’ and other related
programs to ensure consistency and continuity of security related operations.




                                              24
Recommendation 14
      All DOI security policy oversight and compliance should be the responsibility
of OLES.

       As with law enforcement, security also needs centralized oversight. The OLES
should assume all security oversight, policy and compliance responsibilities previously
held by the Law Enforcement and Security Team. The OLES must establish and
maintain close liaison with related Bureau programs to keep them informed, consult with
them and include them in security related operations.

Recommendation 15
       MIB security should remain the responsibility of the National Business
Center (NBC), however, the NBC should appoint a dedicated Security Management
professional with proper credentials to manage security at MIB.

        The National Business Center has been responsible for security at MIB for several
years, and has executed those responsibilities quite successfully. However, in a crisis or
emergency, security has often been removed from NBC and placed under the control of
the Law Enforcement and Security Team.

        Dependence upon law enforcement officers to oversee and perform security
operations fails to recognize the advancement of the security profession over the last
decade. A Certified Protection Professional (CPP) has earned the appropriate security
credentials from the American Society of Industrial Security (ASIS), the largest
professional security association in the world. With a CPP in place, or a professional
with equivalent experience or credentials, to oversee the facility and physical security of
MIB, the need for law enforcement to assume responsibility for security in a crisis will be
reduced significantly or eliminated altogether. The supplemental use of law enforcement
officers to enhance security may be periodically necessary, but would be accomplished
through coordination between the NBC Security Professional and OLES.

Recommendation 16
     Each Bureau should appoint a senior-level (GS-14/15), full-time security
manager to maintain the daily security operations of the Bureau.

        Each Bureau should have a dedicated, full time, credentialed security manager to
ensure the safety of Bureau personnel and visitors. These security managers must
provide timely assessments, make recommendations and implement security measures
while maintaining a positive work environment and ensuring that Bureau facilities remain
accessible to the public.




                                            25
Recommendation 17
        Responsibility for Emergency Preparedness should remain in the Office of
Managing Risk and Public Safety. MRPS should, however, appoint a GS-15
Emergency Preparedness Manager and provide that appointee with adequate staff
to fulfill these responsibilities.

        Like security, effective emergency preparedness requires specialized training and
skills. MRPS has executed its emergency preparedness responsibilities admirably, but
their efforts would be enhanced with the appointment of an emergency preparedness
specialist at the GS-15 level to manage and coordinate the preparedness efforts
Department-wide. The Emergency Preparedness Manager should ensure that the
Department and Bureaus have up-to-date Continuity of Operation Plans, rosters of
employees, notification systems and plans that are consistent and cohesive. This person
should also serve as liaison to OLES for emergency preparedness matters.

        Professionals, both inside and outside of DOI, gave high marks to the tiny
emergency preparedness staff in MRPS during and after September 11. That such fine
results were achieved with so few FTE is extraordinary. There were, of course, areas in
which improvement could be made, which led the way to a “lessons-learned” exercise
conducted Department-wide, in the wake of the attack. The Emergency Preparedness
Manager could be responsible for following up on the “lessons learned” effort.




                                           26
CHAPTER 6. INTERNAL AFFAIRS


         By the nature of their duties, law enforcement personnel are and should be held
accountable to a higher standard of professional conduct. The integrity of a law
enforcement entity depends on the personal integrity and discipline of each employee.
To a large degree, the public image of law enforcement is determined by the quality of
the internal affairs function in responding to allegations of misconduct by the agency or
officer.

        The Assessment Team heard several reasons why a Department-based Internal
Affairs Unit would be effective and efficient. With a centralized approach, this
specialized Unit could be a resource for each Bureau to investigate the most serious
allegations without the interference and obstructions alleged to be taking place in some
Bureaus. The centralized Unit would also help shield investigators from retaliatory acts
and reprisals from targeted officials.

        Utilizing a mixture of full-time and detailed investigators, a centralized internal
affairs component would reduce the cost of each Bureau implementing and maintaining
their own Internal Affairs Unit. BOR, NPS Rangers and FWS-NWRS do not have
Internal Affairs Units and would benefit from the centralization. BIA and USPP, both of
which have functional internal affairs components, could remain in place and receive
support from the centralized component.

        The Assessment Team heard innumerable anecdotes about incidents involving
law enforcement officers that would typically be subject to an internal affairs
investigation. The anecdotes ranged from excessive shooting incidents to the chronic
loss of law enforcement equipment. Unfortunately, when the Assessment Team
attempted to review some of the most alarming incidents, they were unable to verify the
accuracy of the anecdotal reports based on the files available. In fact, in some cases, the
files concerning alleged incidents were actually empty. For the matters that had some
investigative information available, it appeared that the only concern addressed was that
of potential criminal liability on the part of the law enforcement professional involved,
completely ignoring the applicability of civil or administrative action that might be taken.
Whether or not the anecdotal reports have merit, competent internal affairs investigations
would put the matters to rest, eliminating the potential embarrassment to the Department
by these uncorroborated stories.

        The ability to conduct comprehensive and impartial investigations into allegations
of misconduct is essential to ensure the integrity of the Department’s commissioned
employees. In October 2000, each Bureau was directed by the Department to establish an
internal affairs component for its law enforcement program. This has not been completed
and several Bureaus have not even begun the process. A centralized Internal Affairs
Unit, staffed with a combination of permanent FTEs and detailees from the Bureaus, is
now the recommended approach.



                                            27
Recommendation 18
        A single, Departmental Internal Affairs Unit should be established in OLES,
to provide independent, objective oversight over all Departmental law enforcement
officers and managers.

        The centralized Internal Affairs (IA) Unit would be used to conduct investigations
concerning allegations of serious misconduct involving law enforcement officials. The
investigations would be conducted with periodic oversight by the OIG. The centralized
Unit would reduce the likelihood of retaliatory actions against Bureau assigned
investigators, as is presently being alleged. The Unit would maintain and review records
of misconduct and advise DOI management of any identified training, employment or
discipline needs. The use of detailed investigators will provide the centralized Unit with
expertise and knowledge of Bureaus, and the IA Unit will, in turn, train the detailed
personnel in internal investigations.

Recommendation 19

       OLES and the Law Enforcement and Security Board of Advisors should
review, revise and strengthen the Departmental Manual provisions addressing
internal law enforcement incident reporting and resulting investigations.

       Recognized law enforcement standards for internal investigations should be used
as a model for this revision effort. For example, the Standards for Law Enforcement
Agencies8 set forth essential criteria for Administration and Operations of Internal Affairs
Units.




8
  The Standards for Law Enforcement Agencies (SLEA) are published by the Commission on Accreditation
for Law Enforcement Agencies (CALEA).


                                                28
CHAPTER 7. RECRUITING, DIVERSITY AND TRAINING


        In 1999, the Commission on the Advancement of Federal Law Enforcement
published their conclusions concerning the overall performance of the Federal law
enforceme nt system, specifically including the need to increase standardization among
policies, practices and procedures involving recruitment and training. According to the
Commission, the lack of standardization in these activities compromises effective law
enforcement.

          As far back as 1970, the International Association of Chiefs of Police conducted
its first evaluation of the law enforcement and public safety resources within the NPS 9, at
considerable expense, and concluded with numerous recommendations concerning
training and recruitment. In 2000, the IACP conducted a second evaluation of the NPS
Law Enforcement Rangers. Remarkably, all of the issues identified in the 1970 report
were still some of the most significant issues facing the Rangers thirty years later,
including the same familiar training, recruiting and diversity issues.

        According to many of the law enforcement managers interviewed, the recruitment
for law enforcement personnel lacks creativity, timeliness, consistency and standards.
One BLM Field Manager defined the recruiting process, or lack thereof, as “pitiful.”
NPS officials characterized their efforts as “unimaginative” and “inconsistent.” A former
Superintendent described the hiring of Park Rangers for law enforcement as “hiring the
best of the desperate” referring to the tradition of hiring seasonal Rangers full-time after
they spent several years “waiting to get hired by someone.”

       The Assessment Team found that Bureaus use a variety of methods to hire new
employees. Most of the hiring is localized, using the local population to fill the
vacancies. Others recruit nationally and assign locations upon completion of training.
Most law enforcement managers were more concerned with the standards used for hiring
new employees. They were less concerned about whether it was a local or national hiring
process.

        Local hiring, however, precludes the Department from correcting its serious
diversity situation in law enforcement. Diversity in the Department is nominal.
Diversity in DOI law enforcement is abysmal.

       Leaving BIA aside, given the statutory employment preference imposed upon
      10
them, the diversity statistics for the Department and for DOI law enforcement speak for
themselves:



9
  International Association of Chiefs of Police, A Staff Study of the Law Enforcement and Public Safety
Resources in the National Park Service, 1970 .
10
   44 U.S.C. §44, et. seq.


                                                   29
      Comparative Diversity Statistics of Department of the Interior

Group                               White          Black       Hispanic        AA/PI         AI/AN
Total Population                     71.8%         12.2%         11.4%          3.9%          0.7%
Federal Workforce *                  70.5%         17.1%           6.4%         4.1%          1.9%
DOI Workforce **                     82.7%          6.5%           5.3%         2.1%          3.4%
DOI Law
                                     87.3%          4.1%           4.2%         2.0%          2.4%
Enforcement***

*
 Data from DOI Diversity Website, May 1999.
**
  Data extracted from U.S. Department of the Interior Report on Workforce Planning and Restructuring,
Phase I: Workforce Analysis, June 2001. BIA statistics not included.
*** BIA statistics not included.




                              Gender Diversit y Comparison
              Group                                     Male                Female
              Total Population                         49.0%                51.0%
              Federal Workforce                        57.1%                42.9%
              DOI Workforce                            70.8%                29.2%
              DOI Law Enforcement                      87.0%                13.0%


        There is a common belief among some that were interviewed that non-law
enforcement managers have hired individuals for law enforcement positions that were not
qualified. Allegations were made that a manager hired a “friend of a friend” or promoted
a lower grade employee to a law enforcement position simply for the “raise in pay.”

        Both BLM and NPS law enforcement officials stated that Regional or State
Directors have often hired applicants without the input and review of their National Law
Enforcement Office. In one situation, Departmental requirements for certification were
not followed which led to the hiring of a Special Agent in Charge that did not have the
law enforcement training required for Departmental certification.




                                                  30
       In some cases, local offices have hiring authority. For example, a local BLM
Chief Ranger is able to hire Rangers for his field office with final authorization from the
State Director; however, there is no national control or oversight by the Chief of the BLM
National Law Enforcement Office over new agent hires.

        Law enforcement training also suffers from a fragmented and decentralized
approach. For example, in days past, the majority of NPS superintendents were products
of a career ladder that included some tenure as a commissioned law enforcement Ranger.
Today, less than 50% of the superintendents have law enforcement experience. This
number is continuing to decline as the selection of superintendents is made from the
growing specialist fields in the NPS. Similar to other Bureaus, NPS is attempting to
address the problem by mandating superintendents to attend the Law Enforcement for
Managers class at the Federal Law Enforcement Training Center (FLETC). In this one-
week class, managers are exposed to the complexities of the law enforcement roles and
duties.

        FLETC provides this course separately for each Bureau several times a year,
however, the Assessment Team received complaints from all Bureaus that senior
management was not committed to requiring their managers to attend and that there was
no follow-up or repercussions for not attending. Others stated that the class was the only
attempt by senior management to give managers exposure to law enforcement issues.

        In FY 2000, the OIG conducted a study of the Firefighters and Law Enforcement
Retirement Team (FLERT), the unit responsible for issuing entitlement determinations
for DOI retirees who believe they are entitled to the enhanced benefits of law
enforcement retirement. At the time the OIG issued the results of the study, it found that
hundreds of employees had retired or were waiting to retire pending a determination on
their law enforcement retirement entitlement. In real terms, this means that there may be
a significant number of DOI retirees who are not receiving the benefits to which they are
entitled under the law enforcement retirement provisions. Even worse is the fact that
there are potential DOI retirees who must postpone their retirement until they receive a
benefits determination from FLERT.

        At the conclusion of our FY 2000 study, the OIG determined that FLERT had
over 1,942 firefighter and law enforcement cases pending in backlog. The OIG made a
number of recommendations to correct the problems that prevented FLERT from
processing the retirement applications in a timely manner. Rather than accept and
implement the OIG study recommendations, the Department’s Office of Human
Resources commissioned a study of the OIG study, at an additional cost of some $54,000,
to determine whether or not to implement those recommendations. In the interim, the
case backlog declined less than nine percent and the number of claims processed in FY
2001 was actually less than the number processed in FY 2000. At the current pace of
processing, the OIG estimates that it will take FLERT over nine years -- until 2012 -- to
eliminate its backlog.




                                            31
        The practical effect of FLERT’s inability to effectively process these retirement
benefit cases is that DOI law enforcement programs have employees eligible to retire
who are unwilling to retire until their cases are determined. This, in turn, precludes the
law enforcement programs from hiring new recruits and improving diversity in the law
enforcement ranks.

Recommendation 20
        The OLES and Board of Advisors should develop recruiting standards and
guidelines for recruiting new DOI agents and officers, with an emphasis on building
upon existing strategies and developing new innovative strategies to improve DOI’s
diversity in law enforcement. The Director of Law Enforcement for each Bureau
should have authority to review and approve all law enforcement applicants prior to
hiring.

        Centralized control over new-hires would improve hiring consistency and ensure
that proper steps in officer selections are followed, including psychological screening as
required by the Department Manual.11 Centralized oversight also presents an opportunity
for the Department to gradually improve the diversity in its law enforcement program and
to better reflect the diversity of the communities that they serve. The OLES and Board of
Advisors should identify methods to improve the recruitment of law enforcement
personnel, including the use of mass media and intern programs.

      Only one recruitment program in DOI, the BLM Student Career Experience
Program (SCEP), was found to be innovative and worth duplication.

         In 1997, BLM’s law enforcement offices in Salem and Portland recognized a
growing need to fill in behind retiring officers and those transferring to other jobs. As a
result, a Law Enforcement Center of Excellence (COE) was established in the Salem
District in 1998. The COE uses the hiring authority offered by the BLM Student Career
Experience Program. The law enforcement SCEP is aimed at college students enrolled in
an accredited 4-year degree course of study in law enforcement, natural resources, or a
closely related field. The COE uses a wide variety of training techniques to develop the
skills mix necessary for BLM law enforcement officers. Significant time is spent
exploring the agency mission and values; the function of the BLM law enforcement
program; and various administrative and natural/cultural resource management programs
located in the district and throughout the region. Law enforcement SCEPs work full-time
in the COE during the summer and may also work part-time during the academic year.

         Law enforcement trainees are eligible to receive up to $2500 in annual assistance
for tuition, fees, and similar costs. A signed agreement is required. Upon successful
completion of the program, trainees may be placed non-competitively in a permanent law
enforcement position somewhere in the United States. The application process is well-
defined and rigorous.

11
     446 DM Personnel Qualifications and Standards, 22, Selection, (C,2).


                                                     32
       To date, all Law Enforcement SCEP graduates have successfully completed their
BLM training, as well as the course work required by the Federal Law Enforcement
Training Center. All have been hired to fill permanent BLM law enforcement positions.

        This BLM program was the only unique program brought to the attention of the
Assessment Team. Other BLM sites and DOI Bureaus should be encouraged to duplicate
the efforts of the Portland COE.

Recommendation 21
        The OLES and Board of Advisors should research the background
investigation process and determine what can be done to decrease the time it takes
to hire applicants.

        Researching and/or revising the hiring process, such as allowing conditional new
hires, and eliminating the prolonged background investigation process, would alleviate
losing many qualified new hires.

        During field interviews, the Assessment Team found a common complaint from
Bureau officials concerning the hiring process and the timeliness of the background
investigations. Most Bureaus use the Office of Personnel Management (OPM) and their
contractors for background investigations. All stated that they purchased OPM’s
premium service, which provides a preliminary determination within 35 days. The
officials complained that the full background investigations are rarely completed within
the specified timeframe and some have taken over 9 months.

        The Chief of Police at BOR’s Hoover Dam and a BLM Chief Ranger advised that
they recently lost incoming officers to the National Forest Service while waiting for OPM
to complete background checks. Other officials stated that they have lost prospective
employees to state and local law enforcement and felt the length of time it took for them
to hire was a factor in losing them.

        The Assessment Team contacted OPM and requested information on the
background process to see if they could determine where the problem(s) existed. OPM
stated that DOI Bureaus often wait for the complete background investigation to be
completed prior to “conditionally hiring” applicants (hiring, on the condition that the
final background investigation is acceptable). OPM reported that they can provide
advance information in the requested timeframe sufficient for adjudication and temporary
clearance.

        When personnel representatives from the Bureaus and USPP were contacted in
regard to OPM’s response, the Assessment Team learned that OPM does, in fact, provide
advance information concerning the content of the background investigation. One
Bureau stated, however, that they do not use conditional hiring because “they had
problems in the past with it”; others did not know why they did not conditionally hire.



                                           33
Recommendation 22
       OLES should develop training standards and training modules for all DOI
law enforcement -- 1811s, 1812s and uniformed officers.

        Presently, law enforcement training is provided on a Bureau-by-Bureau basis,
rather than collectively, Department-wide. This approach fails to advance the
development of collaboration and teamwork among the Bureau law enforcement units.
This is especially important if Recommendation 25, which encourages the Bureaus to
cross delegate their authorities, is adopted.

        Building on the existing training resources utilized by the Department through the
Federal Law Enforcement Training Center (FLETC), OLES, in conjunction with the Law
Enforcement and Security Board of Advisors, should establish new core inter-bureau in-
service training to encourage the sharing of ideas, development of strategies and building
of relationships. Bureau-specific training can be added at the end of the program. All
managers should attend the existing FLETC Law Enforcement for Managers training
program (or similar programs), regardless of plans for transition.




                                            34
CHAPTER 8. CRIME STATISTICS


         Law enforcement organizations throughout the country -- local, state and Federal
-- utilize crime statistics for a myriad of purposes, from staffing and deployment to
funding and performance. Modern police management has recognized that reliable and
timely information is invaluable to decision making. 12 In fact, all Federal law
enforcement agencies are required by statute 13 to report their crime statistics to the FBI.
In this regard, however, DOI law enforcement is not only out of step with mainstream
law enforcement nationally, but also out of compliance with the reporting requirement to
the FBI.

          The Departmental Manual14 clearly states that each Bureau must have a reporting
system:

          Each Bureau/office that has a law enforcement program will:

             a. Implement a statistical management reporting system that is responsive to
                its needs, the Department’s needs, Congressional mandates and other
                inquiries.
             b. Ensure that their management reporting system responds to all the
                reporting elements of NIBRS (National Incident-Based Reporting
                System15) and other reporting elements as may be required by the
                Department.
             c. Establish and implement procedures for reporting statistical data in a
                timely and efficient manner.

        Recent articles in newspapers across the country have addressed increased crime
in National Parks and other federal lands. The Southwest border has been highlighted as
having some of the most dangerous parks in the nation, and the California Desert Area
has been described as being overrun with criminal violators. According to reports filed
by the DOI Office of Managing Risk and Public Safety16, there has been a 700% increase
in drug, alien and exotic species smuggling activities in the past year along the
Southwestern border. They also noted sharp increases in methamphetamine and
marijuana production in the western, southern and northwestern sections of the country.

       The use of basic law enforcement data (crimes, calls for service, incident reports,
response times) for decision-making, performance and deployment is a rarity in DOI.

12
   “Standards for Law Enforcement Agencies (SLEA): The Standards Manual of the Law Enforcement
Agency Accreditation Program”, Commission on Accreditation for Law Enforcement Agencies, 1998.
13
    28 U.S.C. §543, incorporating provisions of the Uniform Federal Crime Reporting Act of 1988, Section
733 of Pub. L. 100-690.
14
    DM 446-1, Chapter 13, Statistical Information Systems.
15
    In 1988, Congress mandated, through Public Law 100-690, a standardized report of crime from all
Federal agencies with law enforcement programs.
16
    ONDCP Budget Submissions for FY 2003.


                                                   35
Individual Bureaus develop and manage their own records systems. Inconsistent and
independent collection of data and reporting guidelines make any statistical analysis of
DOI law enforcement programs extremely difficult in the best case, and impossible in the
worst. The practice of determining where crime occurs and placing resources at that
location is a foreign concept at DOI. Most senior managers were unaware of the crime
rate at their respective field locations and did not find the use of crime statistics useful.
The failure to collect and analyze crime information is a serious deficiency in DOI.

         The lack of a centralized DOI law enforcement office, with the necessary support
staff, has left individual Bureaus responsible to address this deficiency alone. Bureaus
are pursuing the development of central records systems with no intent or thought of
ensuring department level compatibility. Instead of funding a single development project
to create a land management based reporting system, there are several different plans and
projects in place.

         Reports by the IACP and NAPA criticize the NPS for their inability to accurately
report crime and track costs. Nevertheless, an NPS senior manager defended the NPS’s
ability to report crime and stated that the crime statistics were useful but not a true
measure of risk assessment. He chose to use a previous “customer survey” to conclude
that the Parks were safe and that there was no evidence to indicate otherwise.

        DOI crime statistics are, according to a former MRPS official, “not worth the
paper they were sent in on.” Bureaus have been accused of under-reporting crime
information to “protect their image” or because “it was not important to them.” In one
interview, a NPS Ranger disclosed that he did not prepare and submit reports on his
enforcement activities because “nobody ever asked for them.” The Ranger worked at a
Park considered to be one of the most crime-ridden in the nation. Additionally, with
local law enforcement patrolling portions of DOI lands, incidents may be captured and
reported by both the Bureaus and local agencies or not at all. The NWRS uses
contractual agreements with local law enforcement departments to enforce laws on some
Refuges, although there are no methods in place to record what, if any, law enforcement
actions have been taken.

        The Assessment Team found no statistics or records that could verify the
aforementioned reported increase of crime. Corroboration of the reported increase of
crimes and assaults were provided anecdotally through interviews with law enforcement
personnel. The statistics on crime and enforcement actions have proven to be unreliable
due to inconsistent reporting requirements, lack of records systems and a failure to
mandate collection of the statistics.




                                             36
Recommendation 23
       OLES should coordinate the development and implementation of a
department-wide central records system. The OLES and the Law Enforcement and
Security Board of Advisors should mandate what law enforcement information
must be maintained and how it must be reported.

        Since accurate crime statistics are unavailable, DOI managers overseeing law
enforcement programs do not have timely and complete information with which to
monitor and improve their performance. Therefore, they cannot be held accountable for
the crime rate, investigative clearance, or response to calls for service. Performance
measures are not tied into any law enforcement results. Without accurate collection of
crime data, any attempt to have performance-based objectives for law enforcement will
fail.

        The information obtained by analyzing data relating to crime should be used to
support management and operations. Information can be provided to line managers and
law enforcement officers which can help them develop daily operational and tactical
plans. Administrators can utilize data for strategic planning as it relates to such topics as
crime trends, agency resource allocation, crime prevention and other associated areas.17
This information system should capture all law enforcement activity in DOI, including
any functions that might be contracted out.




17
     SLEA, Chapter 15.


                                             37
CHAPTER 9. PERFORMANCE MEASURES


        The Government Performance and Results Act (GPRA) was designed to
encourage Federal agencies to strategically plan and execute their program activities with
a focus on results. The Assessment Team reviewed the performance goals and measures
for those law enforcement programs that had them – BIA, NPS and BLM. The measures
were very statistically oriented (outputs), lacking any articulation of results (outcomes).
FWS and BOR had no goals or measures for their law enforcement components
whatsoever.

        With the present Administration’s emphasis on tying budget to performance, DOI
law enforcement programs must develop meaningful performance goals and measures if
they are to achieve this goal. Failure to do so may be profound. In its recent critique of
the BIA law enforcement performance report, the Office of Management and Budget
noted that despite a substantial increase in BIA law enforcement funding, “[n]o data have
been provided on the effect of the increased spending on crime rates.”

        While goals and measures may need to be tailored to individual organizations’
jurisdiction and mission, common themes and trends might be shared among the
organizations as they develop their performance goals and measures.

Recommendation 24

       OLES should lead the development of performance goals and measures for
DOI law enforcement programs, and should coordinate the reporting process for
law enforcement programs Department-wide.

        Together with a shift to line item budgets for all DOI law enforcement entities,
meaningful performance measures must be viewed as a move toward operational
responsibility for unique program functions. Sound and accurate accounting allows
managers to identify effective areas of performance and areas that need improvement. It
also allows management to plan its personnel deployment, equipment replacement and
upgrade, administrative support, training, and numerous other critical program
requirements. Effective collection, analysis and utilization of crime statistics will also
provide law enforcement managers a valuable tool in the effort to measure performance.




                                            38
CHAPTER 10. JURISDICTION



        At the height of the Klamath Falls incident in September 2001, an alarming
discovery was made: BOR did not have law enforcement authority, and therefore could
not delegate authority to other law enforcement organizations, either inside or outside
DOI. This extraordinary weakness in BOR’s law enforcement program simply
highlighted the utterly ineffective manner in which the various DOI law enforcement
organizations coordinate their efforts and support one another’s missions. This may be
due, in part, to the eclectic and disparate laws that establish their respective jurisdiction
and govern their respective authority. Some of DOI’s law enforcement programs enjoy
rather broad jurisdiction and authority, while others operate in a very limited arena.

         In 1992, the Department developed an Interagency Agreement (IA or Agreement)
that allowed DOI law enforcement programs to support one another and engage in
coordinated efforts. However, the IA is very dated, and the procedures it contains for
engaging in cooperative efforts are complicated and unwieldy. Furthermore, given the
fact that the Agreement can only authorize the extension of existing authority and
jurisdiction from one law enforcement entity to another, gaps remain in the authority for
DOI law enforcement overall, such as the inability of DOI law enforcement officers to
provide security at the Main Interior Building. Finally, although BOR was a signator to
the IA, it had no authority at the time of the IA to extend to other DOI law enforcement
programs. Subsequent to the Klamath Falls debacle, BOR sought and received law
enforcement authority from Congress.

        DOI has previously explored the possibility of “blanket” Federal law enforcement
authority to no end, and clearly the climate does not exist in Congress to advance this
proposal further. The recent efforts to address security concerns by obtaining special
deputization for DOI law enforcement officers have unfairly burdened the Marshal’s
Service and proven ineffective as a long-term solution for DOI.

Recommendation 25

       OLES should coordinate the revision and streamlining of an Interagency
Agreement among all DOI law enforcement entities to ensure, at the very least,
cross-designation among DOI law enforcement programs.

       A revised Interagency Agreement should incorporate organizational changes in
DOI law enforcement programs and simplify the processes necessary to effect cross-
designation and achieve coordinated activities.




                                              39
CONCLUSION


       Remarkably, this assessment of DOI law enforcement programs has not identified
any new issues. It has confirmed and validated the findings of all the reviews,
evaluations and assessments that preceded it.

        Anticipating concerns that some of the recommendations contained in this report
may increase bureaucratic layers at a time when government is moving in the opposite
direction, the Office of Inspector General has carefully assessed the benefits expected to
be gained by these proposed changes. The organizational model proposed is modest in
both staffing and funding, and provides sound, critical oversight of nearly 4,400 law
enforcement personnel. Adding positions that equate to less than 1% of the overall law
enforcement workforce and an increase in funding that is less than 1% of the annual
(estimated) dollar amount appropriated for law enforcement programs in DOI is a prudent
investment in light of the expected economies and efficiencies in workforce, financial
and program management.

       The 2000 IACP report concluded, “Hopefully, champions of change will emerge
and employ the results and recommendations of this audit more constructively than has
been the case with previous audits.” Sadly, the Assessment Team discovered that no
“champions of change” were to be found.

       The Office of Inspector General and the majority of DOI law enforcement
personnel sincerely hope that this report has now found its way to the champions of
change who will take bold and definitive action.




                                           40
                                                                                 APPENDIX 1


         SUMMARY OF REPORT RECOMMENDATIONS


                                                                                      Report
No.                              Recommendation                                        Page
 1    For the purposes of providing increased coordination and advocacy for law         5
      enforcement at the Departmental level, the Department should create a new
      career Deputy Assistant Secretary for Law Enforcement and Security (DAS-
      LES) position, reporting directly to the Assistant Secretary – Policy,
      Management and Budget. This position should be filled with an experienced
      law enforcement professional.

 2    To ensure coordinated responses at times of emergencies, the DAS-LES              7
      should have direct authority (when delegated by the Secretary) to oversee the
      operational deployment of all DOI law enforcement officers.

 3    The Office of Law Enforcement and Security (OLES) should be staffed with          7
      dedicated personnel experienced in law enforcement investigations,
      management, criminal intelligence, legal matters and budget.

 4    The DAS-LES must establish a clearly defined and documented set of                8
      policies, procedures, techniques and mechanisms detailing the circumstances
      under which the Bureaus are required to interact with OLES and enforcement
      of those rules of engagement.

 5    The DAS-LES should be granted oversight authority for all Departmental law        9
      enforcement units’ budgets.

 6    For all Bureaus, establish a Senior Executive Service (SES) level Director of     12
      Law Enforcement and fill it with an experienced law enforcement
      professional. This position should report directly to the Bureau Director or
      Deputy Director. Bureau Directors of Law Enforcement, together with the
      Director for the Office of Law Enforcement and Security, should serve as the
      members of the Law Enforcement and Security Board of Advisors, created by
      the Secretary’s Order of October 26, 2001.

 7    Immediately restructure the reporting system for Special Agents (1811 and         13
      1812 series) to create line law enforcement authority. All Special Agents in
      the field should report to Special Agent managers (Special Agents in Charge)
      who, in turn, should report directly to the Bureau Directors of Law
      Enforcement. Non-law enforcement oversight of investigations must be
      discontinued.




                                             41
                                                                                      APPENDIX 1



                                                                                        Report
No.                               Recommendation                                         Page
 8    For all remaining law enforcement officers and personnel, develop strategic          14
      plans for the transition to centralized management systems that report to the
      Bureau Directors of Law Enforcement. In the interim, ensure that any
      remaining non-law enforcement managers with line authority over law
      enforcement officers and personnel have and maintain Critical Sensitive
      Clearances, as recommended by Departmental policy

 9    Establish and implement single line item budgets and cost tracking systems           18
      for all DOI law enforcement units.

10    ONDCP and other special law enforcement monies should be controlled by               19
      the DAS-LES and assigned a separate fund code for spending and tracking.

11    Each law enforcement program should develop staffing models and                      22
      methodologies. The Office of Law Enforcement and Security should oversee
      this development effort.

12    Staffing shortages related to officer safety should be identified by the OLES        22
      and corrected immediately.

13    Reduce dependence on part-time collateral duty and seasonal law                      22
      enforcement officers.

14    All DOI security policy oversight and compliance should be the                       25
      responsibility of OLES.

15    MIB security should remain the responsibility of the National Business               25
      Center, however, the NBC should appoint a dedicated Security Management
      professional with proper credentials to manage security at MIB.

16    Each Bureau should appoint a senior-level (GS-14/15), full-time security             25
      manager to maintain the daily security operations of the Bureau.

17    Responsibility for Emergency Preparedness should remain in the Office of             26
      Managing Risk and Public Safety. MRPS should, however, appoint a GS-15
      Emergency Preparedness Manager and provide that appointee with adequate
      staff to fulfill these responsibilities.

18    A single, Departmental Internal Affairs Unit should be established in OLES,          28
      to provide independent, objective oversight over all Departmental law
      enforcement officers and managers.



                                              42
                                                                                 APPENDIX 1



                                                                                    Report
No.                              Recommendation                                      Page
19    OLES should review, revise and strengthen the Departmental Manual               28
      provisions addressing internal law enforcement incident reporting and
      resulting investigations.

20    The Law Enforcement and Security Board of Advisors should develop               32
      recruiting standards and guidelines for recruiting new DOI agents and
      officers, with an emphasis on building on existing and developing new
      innovative strategies to improve DOI’s diversity in law enforcement. The
      Director of Law Enforcement for each Bureau should have authority to
      review and approve all law enforcement applicants prior to hiring.

21    The Law Enforcement and Security Board of Advisors should research the          33
      background investigation process and determine what can be done to
      decrease the time it takes to hire applicants.

22    OLES should develop training standards and training modules for all DOI         34
      law enforcement – 1811s, 1812s and uniformed officers.

23    OLES should coordinate the development and implementation of a                  37
      department-wide central records system. The OLES and the Law
      Enforcement and Security Board of Advisors should mandate what law
      enforcement information must be maintained and how it must be reported.

24    OLES should lead the development of performance goals and measures for          38
      DOI law enforcement programs, and should coordinate the reporting process
      for law enforcement programs Department-wide.

25    OLES should coordinate the revision and streamlining of an Interagency          39
      Agreement among all DOI law enforcement entities to ensure, at the very
      least, cross-designation among DOI law enforcement programs.




                                             43
                                                                                              APPENDIX 2




                       Department of the Interior
                Office of Law Enforcement and Security




                Total Costs of New Office with Existing Staff,
                 New Staff, Start-Up and Operating Costs
                                           (Dollars in Thousands)


                                                              1                      3
                                          FTE       FY2002        FTE      FY2003        FTE       FY2004
                                   4
Existing Staff (Permanent)                    6         $795        16       $1,777        28       $3,732
                        2
Detailed Positions                            6              0       6              0        6              0
                   5
Start-Up Costs                                         1,531                     708                      230
                               6
Annual Operation Costs                                    721                  1,127                  1,127
New Positions                               10            982       12         1,955                       0
Total                                       22        $4,029        34       $5,567        34       $5,089




Notes:

1.   FY 2002 Costs are projected for an 8 month period.
2.   Bureaus will provide salary and benefits for Detailees.
3.   FY2003 Costs include 4 month adjustment from 2002.
4.   Step 6 used for all GS level employees.
5.   Start-Up Costs includes: weapons, computers, office furnishings, telephones, fax machines, etc.
6.   Annual Operating Costs include: travel, vehicles, office space, supplies, criminal data base, etc.




                                                       44
                                                                                               APPENDIX 3


                      Office of Law Enforcement and Security

                                         Deputy Assistant
                                            Secretary


                                             Director
                                         Law Enforcement
                                           and Security

                              Special                    Administrative
                             Assistant                     Support *


                              Budget                     Administrative
                             Analyst *                     Support *


                              Legal
                             Advisor *



     Chief                    Chief                         Chief                         Chief
    Internal                Policy and                Enforcement and              Intelligence and
     Affairs                Standards                  Investigations                  Security


          Senior             Training\Equipment                Investigative              Intelligence
       Investigator        Victim Witness Program                 Liaison                    Officer

       Investigator          Policy Compliance                Drug Program                Task Force
                               (Inspections)                   Coordinator                Coordinator

       Investigator          Policy Compliance              Criminal Information      Personnel Security
                               (Inspections)                       Unit                    Officer

       Investigator          Policy Compliance                 Enforcement                Information
                               (Inspections)                     Liaison                    Security

          Senior                                                 Strategic                Task Force
       Investigator                                             Operations                Coordinator

                                                                 Analyst *                 Security
                                                                                           Liaison

                                                                                          Intelligence
                                                                                            Analyst

                                                                                        Emergency
                                                                                     Management Liaison




    Existing Positions from MRPS-Law Enforcement and Security Team (6)
    New Positions requiring funding in FY 2002 (10)
    New Positions requiring funding in FY 2003 (12)
    Detailed Positions from Bureaus (6)
*   Non-Law Enforcement Series Position




                                                    45
     APPENDIX 4




46
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and
management of the Department of the Interior (DOI). We
accomplish our mission in part by objectively and
independently assessing major issues and risks that directly
impact, or could impact, the DOI’s ability to carry out its
programs and operations and by timely advising the
Secretary, bureau officials, and the Congress of actions that
should be taken to correct any problems or deficiencies. In
that respect, the value of our services is linked to identifying
and focusing on the most important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone - Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud,
and abuse related to Departmental or insular area programs
and operations. You can report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free             800-424-5081
              Washington Metro Area         202-208-5300
              Hearing Impaired              202-208-2420
              Fax                           202-208-6023

              Caribbean Region              703-487-8058
              Northern Pacific Region       671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
